HHS/OIG, Audit -"Review of St. Joseph Hospital's Reported Fiscal Year 2004 Wage
Data,"(A-09-05-00040)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of St. Joseph Hospital's Reported Fiscal Year 2004 Wage Data," (A-09-05-00040)
April 14, 2006
Complete
Text of Report is available in PDF format (503 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether St. Joseph Hospitals (the hospital)
complied with Medicare requirements for reporting wage data in its fiscal year (FY) 2004
Medicare cost report.  The hospital did not fully comply with Medicare requirements
for reporting wage data in its FY 2004 Medicare cost report.  Specifically, the hospital
overstated wage data by $1,747,585 and 473,370 hours.  As a result of our review, the
hospital filed an amended FY 2004 Medicare cost report, which adjusted the wage data
by $471,941 and 446,117 hours.  However, $1,275,644 of wages and 27,253 related hours
remained overstated in the cost report.
We recommended that the hospital:  (1) submit a revised FY 2004 Medicare cost report
to the fiscal intermediary to correct the remaining wage data overstatements totaling $1,275,644
and 27,253 hours, and (2) implement review and reconciliation procedures to ensure that the
wage data reported in future Medicare cost reports are accurate, supportable, and in compliance
with Medicare requirements.  The hospital agreed with our findings and recommendations.